                             .                              .


        0&8& DEPARTMENT'OF                (lOMMERCE~';;'\.
                        Office of Inspector General              \.   <&'J:4rufif
                                                                                    ?i.




                                                   .PUBL\C
                                                   RELEASE
.;>




                      NATIONAL INSTITUTE                              OF
            STANDARDS AND TECHNOLOGY

                      ATP's Man.agement of Intramural
                        Research Can Be Strengthened

                    Audit Report No. STD-11551-0-0001/March 2000




      Office of Audits, Science and Technology Audits Division
u.s. Department of Commerce                                                                      Report No. STD-11551-0-0001
Office of Inspector General                                                                                      March 2000
                                                 TABLE OF CONTENTS

EXECUTIVE       SUMJ\1ARY            .......................................................i

IN1'RODUCTION          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..        1


PURPOSE AND SCOPE OF AUDIT.                           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..         1


FINDINGSANDRECOMMENDATIONS.
                         . .. . .. . . .. . .                                                    . .. .. . .. '" . . .. . . ...                    2
      1.        Selection Process Adequate, but Policies and Procedures
                 Are Not Up to Date. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 2
                          Recommendation.      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 4
                          NIST Response. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
                          OIG Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 5

      II.       Concerns About Appropriate Research and Collaborations Remain.                                              . . . . . . . . .. 5
                          Recommendation.                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..     7
                          NIST Response. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
                          OIG Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8

      m.        Project Performance Is Not Being Adequately Addressed. . . . . . . . . . . . . . . . .. 9
                        Recommendation.     . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . " 10
                         NIST Response.              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10
                         OIG Comments.               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .'. . . . . . . . . . .10

      IV.   Current Method for Disseminating Research Results May Limit
            Program hnpact                                                                                                                        10
                         Recommendation.                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..       11
                         NIST Response. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
                         OIG Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

     v.     Documentation of ATP Management Decisions and Approvals Is
            Not Adequate. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..                    12
                  Recommendation. . . . . . . . . . . . . . . . . . . . ; . . . . . . . . . . . . . . . . . . . ..                                13
                  NIST Response. . . . . . . . . . . .'. . . . . . . . . . . .. .. . .. . . . .                   . . . .. ..                 .13
                  OIGComments                                                                                                                 .14

     APPENDIX I:                    NIST Procedures for Solicitation, Review, and Selection
                                    of Intramural Research Projects

     APPENDIX II:                   NIST Response to the Draft Report
    u.s. Department of Commerce                                         ReportNo.   STD-11551-0-0001
    Office of Inspector General                                                          March 2000

                                       EXECUTIVE SUMMARY

 The Advanced Technology Program (ATP) is a program administered by the National Institute of
 Standards and Technology that assists private companies in carrying out research on high-risk
technologies that will enable them to develop products, services, and manufacturing techniques.
For the period covered by our review, fiscal year 1998, the ATP appropriation was $192.5
million. Through the use of cooperative agreements, the program has provided millions of dollars
in financial assistance to U.S. businesses. In addition, the ATP statute (15 U.S.C. 278n) permits
the program to use up to 10 percent of its appropriation internally for standards development and
technical activities in support of ATP's mission. For fiscal year 1998, ATP funded 114 projects
for $13.8 million.

Intramural projects refer to research and development projects performed by NIST scientists and
paid for with ATP appropriations. We examined the criteria, procedures, and practices for the
solicitation, review, and selection of these projects, and found they appear to be designed to result
in funding decisions that meet the ATP legislative requirements. Requirements include (1) the
total amount of intramural funding cannot exceed 10 percent of ATP's appropriation, (2) the
research must be directed toward standards development and technical activities that support
ATP's mission, and (3) the ATP managers must avoid giving undue advantage to specific
companies.

We found that ATP officials have generally been addressingproblems relating to the intramural
projects as they arise. For instance, in 1997 ATP officials revised the selection criteria to
emphasize generic research that is directed toward solving an industry problem rather than
research directed toward a specific company's problems. By funding generic research, ATP helps
counter any perception that ATP might be giving undue advantage to specific companies and also
expands the benefits of the research industry-wide.

However, our review of the 114 fiscal year 1998 project files identified the following
opportunities for improvement:
.        ATP's formal written policies and procedures for intramural projects should be
         updated to reflect the current process. In addition, to ensure that all NIST scientists are
         fully aware of availability of intramural funds, the updated policies and procedures should
         be included in the NIST Administrative Manual (see page 2).
.        ATP should ensure that its policies and procedures emphasizing generic research
         and requiring approval of collaborations are followed. For 14 projects, we found that
         the research appeared closely linked to a specific ATP grant, and for 15 projects NIST
         scientists did not obtain approval for their outside collaborations as required by its policies
         and procedures (seepage 5).



                                                    1
    u.s. Departmento/Commerce                                          ReportNo. STD-11551-0-0001
    Officeof InspectorGeneral                                                 .      March2000
    .       Project performance should be evaluated. According to ATP managers, they evaluate
            the intramural projects based upon such things as final project reports, contributions to
            workshops, and publication of papers. However, we found,little evidence of these
            evaluations. In addition, some project files did not include sufficient information to
            properly evaluate the project (see page 9).
.           More effective methods for disseminating research results could help improve
            program impact. For example, two of three ATP grantees we contacted were unaware of
        .   potentiallybeneficialresearch. Althoughthis smallsampleis not statisticallysignificant,
            it does raise concerns as to whether ATP's current practices of relying on workshops and
            conferences to publicize this work are sufficient (see page 10).
.           Project files should contain written documentation of management decisions and
            oversight, as well as copies of needed approvals. Without such evidence, ATP
            managers cannot effectively demonstrate that they are properly monitoring the projects
            and ensuring that ali approvals,have been obtained before releasing fimds (see page 12).
Recommendations

We recommend that the Director ofNIST:

.       Revise ATP's formal written policies and procedures for intramural fimding to accurately
        reflect the policies and procedures now being practiced, and include the updated policies
        and procedures in the NIST Administrative Manual (see page 4).
.       Addressconcems about appropriate research and collaborations by (1) strengthening
        ATP's program managers' monitoring of intramural projects by developing and
        implementing procedures that require the managers to meet regularly with NIST
        scientists during the projects to discuss the research and ensure that all collaborations are
        disclosed; (2) clarifying the types of collaborations that require approval; and (3)
        providing additional training to all NIST scientists on the policies and procedures
        governing generic research and collaborations (see page 7).
.       Ensure that all final reports include the information needed to evaluate performance and
        track accomplishments, and develop and implement policies and procedures that (1)
        require ATP managers to evaluate performance, and (2) link the intramural fimding
        results to ATP's performance measures and goals (see page 10).
.       Develop additional methods for disseminating the results of intramural research,
        including posting notices of ongoing research topics and copies of final reports on NIST's
        Internet web site (see page 11).



                                                   11
 u.s. Department of Commerce                                         Report No. STD-11551-0-QOOl
 Office of InsTJector General                                                          March 2000
 .      Implement policies and procedures requiring that the intramural project files contain
        written documentation that meets GAO internal control standards. At a minimum, these
        policies and procedures should require that program managers document management
        decisions,and keep copiesof requiredapprovalsand authorizations(seepage 13).
                                            --------------

NIST's response generally indicated that it believes it is already compliant with all but one of the
suggested improvement areas. NIST agreed that formal evaluations of the projects are needed
and agreed to implement our recommendation to ensure that all final reports include the
information needed to evaluate performance and track accomplishments. For the other areas,
NIST replied that ATP already has updated policies and procedures for selecting projects and its
existing policies for disseminating research results, monitoring projects, and documenting project
files are sufficient. Nevertheless, NIST agreed to clarify the types of collaborations that need
approval. It also agreed to provide training to the scientists on the policies and procedures
governing generic research and collaborations, and the need for discussing and documenting
major changes to the project.

For the recommendations that NIST publish the intramural project policies and procedures in the
NIST Administrative Manual, require ATP program managers to hold formal meetings with the
NIST scientists, and find alternative methods for disseminating the project research results, NIST
did not agree or disagree. Instead, it stated that it would either consider or take under advisement
our recommendations. Based upon NIST's comments, we have clarified the report as necessary.
However, we do not find a basis for changing our findings, and we reaffirm our
recommendations.

We have included a summary ofNIST's response and our comments following each
recommendation. NIST's entire response is included as Appendix II.




                                                111
    u.s. Department of Commerce                                       ReportNo. STD-11551-0-0001
    Office of Inspector General                                                      March 2000
                                           INTRODUCTION

     The Advanced Technology Program (ATP) is a program administered by the National Institute
    of Standards and Technology that assists private companies engaged in high-risk technical
    research that offers the potential for significant economic benefits. Through cooperative
    agreements, NIST provides millions of dollars to single companies and joint ventures to perform
    the research necessary to enable them to develop new products, services, and manufacturing
    techniques. In fiscal year 1998, ATP received $192.5 million in appropriations.

.   In additionto authorizingNISTto providefinancialassistanceto U.s. businesses,the ATP
    statute (15 U.S.C. 278n) permits NIST to use 10 percent of the ATP funds internally for
    standards development and technical activities in support of the program's mission. For fiscal
    years 1996 thro~gh 1998,NIST sponsored 366 such intramural projects at a cost of about $35
    million. For fiscal year 1998, ATP funded 114 intramural projects for $13.8 million.

                                PURPOSE AND SCOPE OF AUDIT

The objective of our audit was to evaluate ATP's management of its intramural projects. We
examined the authority and criteria for using intramural funds on in-house research and
development projects. We reviewed the adequacy of ATP's selection process, including the
criteria, procedures, and practices for the solicitation, review, and selection of the projects.
We also determined whether ATP followed its own policies and procedures in selecting and
funding fiscal year 1998 intramural projectS. Finally, we assessed how well ATPmonitored the
ongoing projects, and whether it had adequate procedures for evaluating performance. Our
findings and recommendations are based on examinations of the 114 fiscal year 1998 intramural
projects totaling $13.8 million, interviews with NIST and ATP officials, and evaluations of
pertinent documents and financial information, including NIST policies, procedures, and
guidance. We also interviewed several ATP grantees. Our work was performed from October
1998 through August 1999 at NIST headquarters in Gaithersburg, Maryland.

We identified the Omnibus Trade and Competitiveness Act of 1988, as amended by the
American Technology Preeminence Act of 1991, as ATP's authorizing and governing legislation
for funding intramural projects. Our evaluation of ATP's compliance with the statute found no
instances of noncompliance. Our evaluation of internal controls found that ATP needs to
improve its administrative management by updating its policies and procedures, reviewing
project performance, and better documenting key decisions and approvals. These issues are
discussed in Sections n, ill, and V of the report. We did not test the reliability of computer-
based data because we did not rely on such data.

The audit was conducted in accordance with generally accepted government auditing standards,
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Departmental Organization Order 10-13, dated May 22, 1980, as amended.



                                                  1
    u.s.Departmentof Commerce                                         ReportNo. STD-11551-0-0001
    Officeof InspectorGeneral                                                            March 2000
                              FINDINGS AND RECOMMENDATIONS

    We found that the ATP's fiscal year 1998 criteria, procedures, and practices for soliciting,
    reviewing, and selecting intramural projects appeared to be designed to result in funding
    decisions that met ATP's statutory requirements. We also found that the program has generally
    been addressing problems as they arise. For instance, in 1997 ATP discontinued its practice of
    funding projects directly related to a specific ATP grantee's technical problems. Instead, ATP is
    now emphasizing projects that address problems experienced by a number of companies. Not
    only does this approach address concerns that ATP might be giving undue advantage to specific
    companies, it also expands the benefits of the research industry-wide.

In addition, ATP officials have instituted controls for avoiding intellectual property disputes and
ensuring that research results are placed in the public domain. Laboratory division directors
must either certify that no non-NIST employees are working on the project or obtain approval for
the participation ofnon-NIST employees from ATP management and NIST's Deputy Chief
Counsel for Technology. Further, ATP funds are withheld until any required clearances, such as
material transfer agreements, are obtained.

Nevertheless, we identified the following opportunities for increasing the effectiveness of ATP's
intramural funding.

I.        Selection Process Is Adequate, but Policies and Procedures Are Not Up to Date

We found ATP's selection process for intramural projects to be adequate for selecting intramural
projects that meet legislative requirements. However, ATP's written policies and procedures,
which date back to 1993, do not reflect the CUlTentprocess and should be updated. We also
found that ATP's policies and procedures have not been published in the NIST Administrative
Manual. Up-to-date, formally issued policies and procedures are needed to ensure that all NIST
scientists are fully aware of the process for obtaining intramural funds.

ATP's intramural projects are not financial assistance awards and therefore do not fall under the
criterial established for such awards. Thus, NIST developed its own internal guidelines, policies,
and procedures for soliciting, reviewing, and selecting intramural projects for funding. The
process must meet the following legislative requirements:
.         The total amount funded cannot exceed 10 percent of ATP's appropriation.
.         The research must be directed toward standards development and technical activities in
          support of ATP's mission.                              .


.         ATP managers must avoid giving undue advantage to specific companies.



                                                  2
     u.s.Departmentof Commerce                                        Report No. STD-11551-0-0001
     OfficeofInspector General                                                       March 2000
    The process used for fiscal year 1998 selections is as follows. The ATP director reviewed the
    program's appropriation and budget to determine how much funding was available for intramural
    projects. Historically, this has been about 5 percent of ATP's budget. For fiscal year 1998, these
    funds were included in the $42.5 million set-aside by the Congress for administration, NIST
    laboratory support, and Small Business Innovation Research requirements. In turn, the funds
    were allocated by ATP's executive director to the three technical offices: Chemistry and Life
    Sciences;InformationTechnologyandApplications,and Materialsand Manufacturing -
    Technology, based on the value of each office's ongoing cooperative agreem~ts. Funding
    opportunities and procedures for submitting proposals for the upcoming fiscal year projects were
    announced via ATP's internal web page prior to the close of fiscal year 1997.

    The program managers of ATP's technical offices selected the projects for intramural funding.
    Projects must target industry-wide problems and promote new capabilities in the laboratory.
    Interested scientists contact the program managers to discuss the proposed work, research
.   objectives,and estimatedcosts. Whenthe programmanagerapprovedthe proposedresearch
    idea and objectives and agreed with the costs, the NIST scientist submitted a brief research
    proposal. The proposal included a project title and estimated costs; a brief summary of the
    research objectives, approach, and milestones; and a discussion of the project's relationship to
    ATP's program objectives and the laboratory mission. Ifnon-NIST researchers, including guest
    researchers,contractors,and CRADApartners,1 are goingto work on the intramuralproject,they
    must be approved in writing by ATP and NIST's Deputy Chief Counsel for Technology before
    they can begin work. Material transfer agreements, non-disclosure forms, or cooperative
    research and development agreements are required if proprietary information or samples are
    expected to be involved.

Once the program manager approved the project and all other necessary approvals were obtained,
the funds were transferred to the laboratory. Projects could be for either one year or multi-years,
but all were funded one year at a time. At the end ofthe year, the scientist had to submit to ATP
an acceptable final report on the research results and progress before the scientist could receive
the next year's funds. For fiscal year 1998, the average project funded was about $121,000.

Based on our review, we concluded that the selection process followed by ATP in fiscal year
1998 was sufficient for funding intramural projects that met ATP legislative requirements. As
noted above, this process was included, along with the guidance for submitting proposals and
final reports, in a memorandum signed by the ATP Director. In addition to the memorandum,
NIST also has formal written policies and procedures. These were given to us by ATP officials
at the beginning of the audit. We found that these were last revised in 1993 and did not include
the policy and procedural changes made since that time. For instance, in 1997, ATP revised its


         lCooperative Research and Development Agreements (CRADAS) are joint research
efforts in which NIST and its partner provide staff, equipment, and/or funds for a project of
mutual interest.

                                                   3
 u.s. Department of Commerce                                         Report No. STD-11551-0-0001
 Office of Ins1JectorGeneral                                                         March 2000
 selection criteria to emphasize generic research rather than research directed toward a specific.
 ATP grantee's problems. The purpose of the change was to avoid appearances of favoritism and
 also expand the benefits of the intramural research results. However, our copy of ATP's written
 policies and procedures still required that intramural projects be directly linked to specific ATP
 granteeproblems.

GAG Standardsfor Internal Controls in the Federal Government provides guidance to help
agencies establish and maintain effective internal control systems. These standards specifically
include policies and procedures as an important control activity to ensure that management
directives are properly enforced. Furthermore, GAG specifies that policies and procedures
describing internal controls be documented. Because ATP's written policies and procedures do
not reflect the current selection process, they do not comply with GAG's internal control
standards.

Also, we found.that the policies and procedures for intramural projects are not included in
NIST's Administrative Manual. The manual is NIST's official medium for informing staff of
formal policies, procedures, and other information needed for effective administration and
operation. Although ATP announces the availability and process for obtaining intramural funds
on its internal web page, the entire set of policies and procedures should also be published in the
manual to comply with NIST directives, which require that all formal policies and procedures be
included in the manual. Moreover, publishing accurate,and complete policies and procedures in
the manual will help ensure that all interested NIST scientists are fully aware of the availability
of and the process for applying for ATP funds.

Recommendation

We recommend that the Director ofNIST revise the program's formal written policies and
procedures for intramural funding to accurately reflect the policies and procedures now being
practiced, and include the updated policies and procedures in the NIST Administrative Manual.

NIST Response

In its response, NIST disagreed with our finding that it needs to update its fonnal written policies
and procedures. It argued that it already has written policies and procedures for intramural
funding which it updates and transmits each year in a memorandum signed by the ATP director.
According to NIST, the memorandum provides the guidance the NIST scientists need for
applying for intramural funding. NIST also requested that we delete the statement that its written
formal policies include the requirement that ATP projects be directly linked to specific ATP
grantee problems. According to ATP, that statement is inaccurate because it revised the policy in
FY 1997. Finally, NIST said it would take into consideration our recommendation to include the
policies and procedures in NIST's Administrative Manual. -                                    .




                                                 4
   u.s. Departmentof Commerce                                         ReportNo. STD-11551-0-0001
   Office of Inspector General                                                       March 2000
  OIG Comments

   We agree that NIST issues an updated memorandum each year, and revised our report
   accordingly. However, a memorandum is a method for disseminating information and is not
   NIST's official medium for formal publication of policies and procedures. As we point out in
   the report, Chapter 4 of the NIST Administrative Manual requires that policies and procedures be
   published in the manual. In addition, we were given a copy of ATP'sofficial intramural project
   policies and procedures. These dated back to 1993, had not been updated, and, as aresult, did
   not match the policies and procedures included in the current year's memorandum. Moreover,
   we found that having two different sets of policies and procedures can be confusing. To end this
 . confusion and comply with NIST directives, NIST needs to have one official set of policies and

  procedures that are published in its Administrative Manual. Accordingly, we affinn our
  recommendation.

 In regard to NIST's response that our report includes an incorrect statement about the link
 between intramural projects and ATP grantee problems, we disagree. We use the sentence as.an
 example to show that the copy of the official intramural project policies and procedures we were
 given included policies that were no longer in effect. Our report clearly states that ATP revised
 its policy and no longer funds projects that are closely linked to specific ATP grantees.
 However, these revisions were not reflected in the intramural project's official policies and
 procedures. Accordingly, we did not revise our report.

 ll.     Concerns About Appropriate Research and Collaborations Remain

  Our review of 114 intramural project files identified 14 projects in which the NIST scientists
  indicated that they worked closely with an ATP grantee, thus providing a direct benefit to a
, specific ATP project. The ATP statute specifically states that the ATP program should avoid

  giving ''undue advantage" to specific companies. We also identified 15 projects in which NIST
  scientists did not receive approval for their outside collaborations. These approvals are required
  by current ATP policies.

NIST began addressing concerns abouj:ATP's intramural projects in 1994, when, at the urging of
its Research Advisory Committee, the agency issued guidelines for laboratory interaction with
ATP. Of particular concern to the committee was the appearance of conflicts of interest. Some
ATP proposers apparently believed that interacting with NIST scientists improved their chances
of receiving an award. The guidelines contain several principles that address NIST scientists'
behavior, such as requiring them to treat all ATP applicants fairly and prohibiting them from
participating in a company's ATP proposal process.

Even with the guidelines, questions concerning NIST scientists and ATP grantees apparently
persisted. ATP managers wanted to ensure that the laboratories were not performing research or
providing measurements, calculations, or similar work that the company or joint venture was
required to perform itself under the award. Consequently, in 1997 ATP revised its policies and

                                                 5
 u.s. Department of Commerce                                       Report No. STD-11551-0-0001
 Office of Inspector General                                                       March2000
 procedures. ATP officials discontinued funding research closely linked to work being done by a
 specific ATP grantee, and began emphasizing generic research. By adopting a broad-based
 approach, the program would no longer appear to be providing undue assistance to individual
 grantees. At the same time, the research would benefit an entire industry rather than just one
 company or joint venture.

Yet, in spite of the policy change, we found that in 14 of the 114 projects reviewed, NIST
scientists appeared to be working on projects closely linked to a specific ATP grant. For
instance, the intramural proposal for a component-based software tool project referred to the
NIST scientists' close ties with the grantee and included as its milestones developing new'
components for the ATP grantee's proprietary software and making those components available
to the grantee's customer base. In another example, NIST researchers working on a magnetic
hard disk project included ATP'grantees as members of their research team. Also, a catalytic
polymerization project proposal described teaming arrangements between NIST scientists and an
ATP grantee and noted that similar collaborations with other ATP grantees would be established
as "interest warrants."

 Concerns over private ownership of intellectual property and public dissemination of research
 also played roles in ATP's decision to revise its policy. ATP and NIST officials became aware
that the intramural program was generating a considerable amount of intellectual property. The
officials were concerned that the research results were considered proprietary information by the
companies working with the NIST scientists, and thus not being published. Moreover, to the
extent that NIST could not release the research results to ATP grantees, the research would no
longer be benefitting ATP. Thus, ATP would be in violation of its statute. Finally, managers
and the NIST Deputy Chief Counsel for Technology worried about the NIST scientists' access to
the proprietary information and trade secrets of the outside collaborators.

To address th~se concerns, ATP instituted procedures to protect NIST's right to the research
results. Scientists must obtain approval from ATP and NIST's Deputy Chief Counsel for
Technology for any outside collaborations or have the laboratory divis,ion director certify that
"NIST employees only perform all research." ATP also holds meetings between the NIST
Deputy Chief Counsel and NIST scientists when questions concerning proposed collaborations
m~'                                                                            '



Nevertheless, we found that in 15 of 114 projects reviewed, scientists were still entering into
collaborations without approval, sometimes after having certified that only NIST employees
would be working on the project. For instance, a project involving medical imaging through
computer modeling included both the certification that no non-NIST employees would work on
the project anda list ofnon-NIST research team members.




                                                6
  u.s. Department of Commerce                                        Report No. STD-11551-0-0001
  Office of Inspector General                                                        March 2000
 We identified several reasons why these practices continue:
 .       ATP intramural project policies do not include comprehensive procedures for
         administering the projects. Without such procedures, ATP managers may not be
         monitoring the projects to the extent needed to be fully aware of the interaction between
         the grantees, non-NIST personnel, and NIST scientists. In several instances, although the
         proposals were written generically and did not refer to any collaborations, the finalreport
         indicated that the NIST scientist worked on a problem related to a specific ATP grant or
        collaboratedwith outsidescientists.                                                      .



 .      There appears to be confusion as to what types of collaborations need to be approved.
        For instance, the proposal procedures address only formalized collaborations, such as
        guest researchers or cooperative research and development.agreement partners. Yet we
        understood ftom our discussions with NIST's Deputy Chief Counsel for Technology and
        ATP officials that all outside collaborations, including informal collaborations, were
        required to be approved.
 .      Training was not sufficient. ATP does not have formal training sessions on the policies
        and procedures for requesting intramural funding. Instead, ATP meets with scientists
        when issues or questions concerning individual research projects arise. Consequently,
        scientists may not fully understand the policies and procedures they are expected to
        follow.

Recommendation

We recommend that the Director ofNIST address concerns about appropriate research and
collaborations by (1) strengthening ATP's program managers' monitoring of intramural projects
by developing and implementing procedures that require the managers to meet regularly with
NIST scientists during the projects to discuss the research and ensure that all collaborations are
disclosed; (2) clarifying the types of collaborations that require approval; and (3) providing
additional training to all NIST scientists requesting intramural funding on the policies and
procedures governing generic research and collaborations.

NIST Response

NIST agreed to clarify the types of collaborations requiring approval and provide training to all
NIST scientists on the policies and procedures governing research and collaborations. NIST
further stated that it will take under advisement our recommendation to have regular meetings
with the NIST scientists. However, NIST disagreed with our report conclusion that 14 projects
appeared to involve NIST scientists working closely with ATP grantees, stating that ATP's
policies would not permit these types of projects to be approved. According to NIST, as auditors
we did not understand the science and did not obtain explanations ftom ATP project managers.



                                                7
 u.s.Departmentof Commerce                                         ReportNo. STD-11551-0-0001
 Officeof InspectorGeneral                                                        March 2000
 NIST stated that approvals were received for all collaborations, although it admitted that some
 approvals may not have been documented and that improvements can be made in documentation.
 Accordingly, NIST stated that it has instituted a procedure whereby the administrative staff
 maintains a record of all projects that received NIST legal review. NIST also explained that
 some infoIDlalcollaborations may not always require approval because they do not present a risk
 of losing intellectual property rights.

 GIG Comments

We are pleased that NIST agreed to implement our recommendations to clarify the types of
collaborations requiring approval and provide training to all NIST scientists. We also are aware
that ATP has infoIDlaldiscussions with the NIST scientists. However, without documentation
on when, where, or what was discussed, these meetings will not meet the intent our
recommendation. Accordingly, we reaffirm our recommendation that ATP hold regular
documented meetings with NIST scientists to discuss the research and ensure that all
collaborations are disclosed.

NIST also stated in its response that we did not discuss the projects with the ATP project
managers. That is not true. Although we did not discuss all 114 projects with the project
managers, we did hold numerous discussions with ATP officials, the Deputy Chief Counsel
assigned to NIST, and several NIST laboratory scientists. In addition, for several intramural
projects, including the In-situ Catalyst and Materials project cited in NIST'§ response, we asked
for and received answers.to our questions in writing.

The second project referred to in NIST's response (Selective Targeting of the HIV-1 Binding
Site on the CC-CKR5 Receptor, a Seven Transmembrane Receptor Required for IllY-I Entry
and Fusion) was not included in our list of concerns about appropriate research. Hence, it is
unclear what point NIST is attempting to make.

In the case of the In-situ Catalyst and Materials project, we included the project in the report
because of what we believe is ATP's inappropriate funding of an intramural project that is
closely linked to an ATP grantee. For instance, in the intramural projectproposal, the NIST
scientists state that the project's fiscal year 1998major focus would be the ATP grant project as
well as improvements to the research facility. This is a facility designed and built in a
collaboration between the NIST scientists and the ATP grantee. The project proposal goes on to
state that the facility was built with support from the ATP intramural program and is named after
the ATP grantee. NIST, in its written response to our question, said that the NIST scientist was
verbally instructed which work was not appropriate for AT}>funds, and ATP did not provide any
funding for that work. However, the final report showed that the NIST scientists continued to
work closely with the ATP grantee, even referring to them,as "our partners."            ,




                                                8
        ,                    ,
 u.s. Department of Commerce                                            ReportNo. STD-11551-0-0001
 Office of Inspector General                                                           March 2000
 ill.       Project Performance Is Not Being Adequately Addressed

 We found little evidence that ATP managers evaluate the results of the intramural projects. The
 managers told us that they established two primary program goals and objectives for the
 intramural projects--ensuring that industry will have the standards and measurements needed in
the future, and providing the NIST laboratories with the seed money to develop new capabilities.
They further told us that they evaluate a project's success in meeting these goals and objectives
based on the submission of final reports, contributions to workshops, publication of papers, input
ITomthe ATP grantees, and the program manager's interaction with NIST scientists. In addition,
ATP's policies require program managers to track accomplishments. However, other than copies
of the final report, they could not provide us with any of the aforementioned infonnation.
Moreover, our review of the 114 fiscal year 1998 reports found that not all reports included the
information needed to properly evaluate the projects to determine if results were achieved and
goals and objectives met.

ATP policies require that scientists submit acceptable final reports for each project before they
can receive additional intramural funding. The scientists are to use the report fonnat provided by
ATP. For fiscal year 1998, the fonnat required that reports include the milestones and objectives
of the research, a two-to-three page summary of the progress against all technical objectives, and
a list of the publications and presentations submitted or accepted that resulted ftom the research.
However, not all final reports followed the fonnat. For instance:
.           Ten reports did not clearly show what research was accomplished because the summaries
            did not address the technical milestones and objectives approved by ATP or identify the
            work perfonned with the ATP funding.
.           Eleven reports did not include a list of the publications and presentations, or describe how
            the research results would be transferred to the ATP grantees and other interested parties.

Because the final reports did not always include the necessary infonnation, ATP managers could
not properly evaluate the results of the projects or address perfonnance issues.

As GAD recently testified "Obtaining more credible results-oriented perfonnance infonnation is
essential for (1) accurately assessing agencies' progress in achieving goals, and (2) in cases
where sufficient progress is not being made, for identifying opportunities for improvement."z
Performance evaluations are an important aspect ofintemal control because they enable NIST
and ATP officials to properly assess the effectiveness of the intramural projects in meeting
ATP's goals and objectives. Perfonnance evaluations also provide the information needed to



      2 GovernmentManagement: Addressing High Risks and Improving Performance and
Accountability, GAO/T-OGC-99-23, February 10, 1999.
                                                     9
 u.s. Department of Commerce                                         Report No. STD-11551-0-0001
 Office of Inspector General                                                         March 2000
 support decisions for funding follow-on research, assess the effectiveness of management
 decisions, and evaluate th~ ~esultsof the recent policy changes discussed earlier in this report.

Recognizing the importance of program evaluations and results, the Congress enacted the
 Government Performance and Results Act of 1993. This act requires agencies to clarify their
mission, set strategic and annual performance goals, and measure and report on performance
toward those goals. To comply with the act, the Technology Administration, NIST's parent
agency, has established performance measures and goals related to ATP. However, because ATP
is not evaluating the intramural projects, the results of the projects cannot be included in ATP's
overall performance results. We discussed this issue with the ATP officialresponsible for
evaluating ATP's performance. The official told us that ATP recognized the need for evaluating
the intramural funding, but no decision has been-made as to whether the projects should be
included in the laboratories' or in ATP's performance measures and goals. We believe that the
intramural projects should be linked to ATP performance measures and goals because the
purpose of the research is to perform standards development and technical activities in support of
the ATP mission.                                                                .




Recommendation

We recommend that the Director ofNIST ensure that all final reports include the information
needed to evaluate performance and track accomplishments, and develop and implement policies
and procedures that (1) require ATP managers to evaluate performance and (2) link the
intramural funding results to ATP's performance measures and goals.

NIST Response

NIST agreed to provide more training to ensure that its scientists include the information needed
to evaluate performance and track accomplishments. NIST also stated that ATP has begun to
take the appropriate steps to conduct evaluations to link intramural funding results to ATP's
performance measures and goals.

DIG Comments

NIST's proposed actions meet the intent of our recommendation. Accordingly, the
recommendation is considered resolved.

IV.    Current Method for Disseminating Research Results May Limit Program Impact

Intramural projects provide standards imdmeasures needed by the grantees for deploying their
ATP-developed technologies. Under the ATP statute, ATP must ensure that the research results
are disseminated to its grantees. However, our interviews Withthree grantees raised a concern



                                                 10
 u.s. Department of Commerce                                        Report No. STD-11551-0-0001
 Office of Inspector General                                                        March 2000
 about the effectiveness of ATP's dissemination methods because two of the three did not know
 about ongoing intramural research that could potentially benefit their own research.

  According to the ATP managers we interviewed, they rely on workshops and conferences to let
  the grantees know about ongoing intramural researc:Q-.To better understand how well this is
  working, we contacted three grantees who were listed as beneficiaries of the research on four
 intramural proposals. One of the projects, Materials Processing, was associated with a specific
 ATP grantee's project, and the NIST scientists worked directly with the ATP grantee. For the
 other two intramural projects, the NIST scientists did not work directly with grantees. In our
 interviews with the three grantees' scientists, we foimd that only the grantee working directly
 with the NIST scientists on the Material Processing project was aware of the research being
 conducted. This grantee spoke very highly ofNIST's assistance. The other two grantees said
 they were unaware of the research being conducted, although one of them had attended recent
 workshops put on by ATP, and both stated that the research addressed areas of great interest to
 them.

We recognize that the experiences of three companies are not statistically significant. However,
we believe these experiences rai~econcerns about whether ATP's current practices of relying on
workshops and conferences to publicize this research is sufficient. Additional procedures, such
as posting proposed research and final project reports on NIST's Internet web site, could help
ensure that all interested parties are made aware of any ongoing research in their area.

Recommendation

We recommend that the Director ofNIST develop additional methods for disseminating the
results of intramural research, including posting notices of ongoing research topics and copies of
final reports on NIST's Internet web site.

NIST Response
                           .      .

NIST replied that its current practice of publishing papers and utilizing workshops is an effective
method for disseminating the intramural project research results. However, it agreed to consider
our recommendation by exploring additional methods for disseminating the research results,
including using the NIST Internet web site. It also agreed to review the intramural program at
ATP kick-off and annual meetings.

OIG Comments

 We are pleased that NIST is looking for new methods for disseminating the intramural project
research results. However, we believe that posting the intramural project topics and reports on
the Internet is a very effective method for disseminating research results and deserves more than   .


just consideration. In addition, the Paper Work Reduction Act of 1995 requires that federal

                                                11
    u.s. Department of Commerce                                       Report No. STD-11551-0-0001
    Office of Inspector General                                                       March 2000

agencies provide for the dissemination of public information on a timely basis, on equitable
terms, and in a manner that promotes the utility of the information to the public and makes
effective use of information technology. Accordingly, we reaffirm our recommendation.

v.        Documentation of ATP Management Decisions and Approvals Is Not Adequate

ATP's level of documentation did not meet internal control standards because the intramural
project files (1) did not clearly show that ATP program managers were monitoring project
research or approving changes in research direction and milestones, and (2) did not always
contain the approvals and material transfer agreements needed to protect NIST's right to the
research results when its scientists collaborate with non-NIST scientists or work with.proprietary
information. For example:
.        For the 14 of 114 final project reports that identified changes in research direction or
         planned milestones, the files contained no documentation on whether the ATP program
         manager was aware of and approved the changes. Ensuring that ATP approves material
         changes in research direction is important because such changes would affect the research
         results and thus the benefits to the ATP mission. For instance, a scientist received
         $120,000 to perform research on high performance polymeric composites. However,
         because the material was not available, the work was not completed as planned; Instead
         the scientists wrote about new results using the composite material that was the subject of
         the 1997 intramural project. Studying the previous year's materials may be beneficial to
         the laboratory, but not necessarily to ATP. Yet, we found no evidence that the ATP
         project manager knew of the change and approved it.
.        None of the 114 project files contained any indication of whether the ATP program
         manager was satisfied with the intramural project's research work, although we found
         some questionable results. For example, ATP awarded a $100,000 grant to a NIST
         researcher to study and perform research on high-definition video. What ATP received
         was attendance and participation in three standards committee meetings, consultation
         with ATP staff, and reviews of ATP proposals. Although ATP managers told us that
         attending these meetings met the project's objective, the file contained no evidence to that
         effect. It was not clear to us how attending three meetings and reviewing ATP proposals
         fulfilled the approved milestones, or why doing so cost $100,000.
.        For the 14 projects where work was not completed as planned, the files did not indicate
         whether ATP had requested its money back or taken some other appropriate action. This
         was true even when significant problems were disclosed. For instance, one researcher
         complained that he could not perform the research as proposed because the laboratory
         was not committed to the work and had spent a portion of the money on another project.
         However, we found no evidence that ATP acted upon the researcher's complaint.



                                                 12
 US. Department of Commerce                                         ReportNo. STD-11551:-0-0001
 Office of Inspector General                                                       March 2000
 .      The files did not always include sufficient information to tell whether the research was to
        be carried out during the year or over multiple years, or how many years it would take to
        complete. Without such information, managers may be approving projects without
        knowing the true cost of the research or how long it will take before ATP will rt\ceive the
        expected results.

ATP documentation should be improved to show the extent ofproject monitoring and ensure that
NIST scientists obtain all required approvals and authorizations. This information is needed to
meet internal control standards. Effective internal controls provide managers with reasonable
assurance that the agency's operational objectives are being met, financial reports are reliably
prepared, and laws and regulations are being followed. As previously discussed in the report,
GAO's Standardsfor Internal Controls in the Federal Government provides guidance to help
agencies establish and maintain effective internal control systems. For instance, GAO's
guidance requires all transactions and significant events to be clearly documented and readily
available for examination. The documentation should be complete, be accurate, and allow for
tracing the transactions and events before they occur, while they are in process, and after they are
completed.

We discussed these issues with'ATP managers, who stated that they are in constant contact with
the participating laboratory scientists, and were fully aware of results of the research and any
changes that occur or problems that arise. They also furnished us copies of the material transfer
agreements. Nevertheless, when ATP is spending between $9 million and $14 million annually
for a program of this importance, proper accountability requires that management decisions and
approvals be documented. Without such documentation, ATP managers cannot demonstrate that
they are properly overseeing the use of program funding and ensuring that intramural projects are
benefitting ATP's mission.

Recommendation

We recommend that the Director ofNIST implement policies and procedures requiring that the
intramural project files contain written documentation that meets GAO internal control standards.
At a minimum, these policies and procedures should require that program managers document
management decisions and keep copies of required approvals and authorizations.

NIST Response

NIST agreed that project files should include written documentation of management decisions
and significant changes. It also noted that all initial intramural project approvals were included
in the files. However, it argued that few changes warrant written approval, reasoning that the
nature of generic basis research is such that change is to be expected, and requiring written
documentation of each change is unnecessarily burdensome and not cost effective. NIST further
argued that ATP' s existing policies that require major.changesto be discussed with the project

                                                13
 US. Department of Commerce                                         Report No. STD-11551-0-0001
 Office of Inspector General                                                        March 2000

manager are sufficient. Nevertheless, it agreed to provide training to NIST scientists that
included the requirement that major changes be approved and documented.

NIST also commented on one of our examples included in the report, a $100,000 intramural
project on high-definition video. We reported that the scientist working on the project did not
perform the work approved by ATP. Instead, ATP received attendance and participation in three
standards committee meetings, consultation with ATP staff, and reviews of ATP proposals. While
NIST acknowledged that the project's final report made reference to the review of ATP proposals,
it stated that this was not the purpose of the intramural project and no intramural funds were used
for that purpose. NIST further argued that the ATP project manager was in constant contact with
the NIST research and was aware of the scientist's contributions to the project.

OIG Comments

NIST's response centers on the extent of monitoring that the intramural projects require.
According to NIST, few changes to the intramural projects are so major as to require approval.
ATP only requires major changes to be discussed with the project manager to ensure that the
change is still consistent with the generic scope of the originally proposed effort. Nevertheless,
NIST agreed to include in its training the requirement to adequately address any major changes in
advance with the ATP project manager and document it as appropriate.

However, NIST's response does not adequately address our finding and recommendation. Our
report does not focus on whether NIST is properly monitoring the intramural projects. Rather, the
report addresses the need for written support to show that ATP project managers are properly
managing the intramural projects. For instance, as we state in our report, according to ATP, there
is a significant amount of interaction between ATP project managers and the NIST scientists.
However, the files contained little, if any; documentation of any follow-on interaction. If, as NIST
asserts, ATP project managers are kept fully Informed of changes and work closely with the NIST
scientists, we see no reason why the results of these interactions cannot be documented in the
project files.

In addition, ATP officials told us that they require the NIST scientists to obtain material transfer
agreements and similar types of approvals before ATP approves and releases th.eintramural funds.
These approvals are important because they protect NIST's ability to release the research results to
the public. However, the officials rely on verbal notification from the NIST scientist that the
agreement had been obtained. Because of the importance of these approvals, we believe that
copies of these agreements should be included in the intramural project files.

NIST also agreed to provide training to its scientists on the need to adequately address major
changes in advance with the ATPprogram manager and document them as appropriate. However,
this action is not fully responsive to our recommendation. We recommended that NIST implement



                                                 14
  u.s. Department of Commerce                                         Report No. STD-11551-0-0001
  Office of Inspector General.                                                         March 2000
. policies and procedures requiring that intramural project files contain written documentation that
  meet GAO internal control standards. Accordingly, we reaffirm our recommendation.

NIST also requested that we delete a statement in our example that questioned the results of an
intramural project on high-definition video. The statement referred to the scientist's use of ATP
intramural funds to review ATP proposals. NIST argued that it is improper to use the funds for
that purpose. According to NIST, although the final project report referred to the review of ATP
proposals, that was not the purpose of the intramural project and no intramural funds were used for
that purpose. However, NIST did not furnish us with any documentation to refute its scientist's
statement and our review of the accounting records found that the records do not include that type
of information. Without any support, we did not revise the report as requested.




                                                 15
u.s. Department of Commerce                                                                            Report No. STD-11551-0-0001
Office of Inspector General                                                                                            March 2000
                                                                                                                     APPENDIX I
                                                                                                                       Page 1 of2

                    NIST Procedures for Solicitation, Review, and Selection of
                                 Intramural Research Projects




                                                 ATP announces intramural
                                                 funding opportunities and
                                                 procedures for submitting
                                                 proposals on the ATP internal
                                                 web site




                                              ATP evaluates Idea based on
                                              following criteria: Does it target
                                              Industry-wide problems and promote
                                              new capabilities in the labs




               Project idea                        No
               rejected




                                                  NIST scientists submit
                                                  written proposal to ATP




               ATP reviews written proposal to determine if project meets expedited approval process criteria:

               ..Research Is generic
                 Results are pubflshed or lead to future SRMs, calibration technologies, critical databases

               ..
               . No proprietary information or 1nIe11actua1
                 No questionnaires or surveys Involved
                 No human or animal subjects involved
                                                          property Issues envisioned


               . No direct involvement with individual ATP grantees
u.s. Department of Commerce                                                               Report No. STD-11551-0-0001
Office of Inspector General                                                                               March 2000
                                                                                                         APPENDIX I
                                                                                                           Page 2 of2




                                                                     Ves
                                                                           ATP sends scientist approval memo showing amount
                                                                           of support and approved milestones. ATP transfers
                                                                           funds to labOratory.




                      Collaborations or intellectual property-
                      ATP requests approval from Office of
                      General Counsel & schedules meeting
                      between scientis~ OGC and ATP




                     Proprietary information -. ATP must be
                     notified and Laboratory must hava
                     nondisclosure or material transfer
                     agreements completed and approved by
                     OGC




                     Proposals that incorporate proprietary
                     information in the research - scientists must
                    have CRADA in place

                    Scientists must have ATP approval of
                    surveys, human or animal subjects,
                    involvement of ATP companies
                                                                                          APPENDIX II

                ~
                 /'~tIT <»
                       \ud
                                ~~      NISr            UNITED
                                                       'Natolonal
                                                                     STATES       DEPARTMENT
                                                                     Inetoltoutoe of Stoandarde
                                                                                                     OF COMMERCE
                                                                                                  end Technology
                :"      JL\
                                                        Gaithersburg. Maryland 20888
                11
                '\'    ~    .

                                  ~
                      ~<IrU Off",'"
                                   J.                   OFFICE OF THE DIRECTOR




    MAH 1 6 2000
 MEMORANDUM FOR Mary L. Casey
       .                              ActingInspectorGeneralforAuditing

From: R~ymOnd G. Kannn'i')(
      DIrector
                 .


                        c\Y-            \
                                            0
Subject: ATP's Management of Intramural Research Can Be Strengthened
         Draft Audit Report STD-11551-0-XXXX


Thank you for the opportunity to comment on the subject draft audit report. The following
commentsare provided:                            .



Page i, first bullet:

OIG Finding: "ATP's formal written policies and procedures for intramural projects
should be updated to reflect the current process. In addition, to ensure that all NIST scientists
are fully aware of availability of intramural funds, the updated policies and procedures should be
included in the NIST Administrative Manual (see page 2)."                                     .



NIST Response: Formal written policies and procedures for intramural projects are updated
annually to reflect the current processes. These written policies and procedures are formally
transmitted to the NIST Operating Unit (OU) Directors from the Director of the Advanced
Technology Program (ATP). The guidance includes! the operational characteristics of the ATP.
intramural funding, format for submission of intramural proposals, and format for submission of
annual intramural reports of accomplishments. For the past several years, the guidance provided
by the ATP Director to the OUs clearly reflects updated policies and procedures to ensure that
the OUs are fully informed of the availability of intramural funds. The procedures in place are
well documented and have proven to be very effective. We will take into consideration the
recommendation to include the intramural policies and procedures in the NIST Administrative
Manual.

Page i, second bullet:

OIGFinding: "ATP should ensure that its policies and procedures emphasiziBg generic
research and requiring approval of collaborations are followed. For 14 projects we found
that the research appeared closely linked to a specific ATP grant, and for 15 projects NIST             .


scientists did not obtain approval for their outside collaborations (see page 4)."
                                                   2

  NIST Response: The CUlTentpolicy, which was also in effect in FY98, requires that an
  intramural project be one of generic basic research. This type of research cannot provide any
  ATP awardee with undue advantage because of the nature of the research and the requirement
  that the results be published in the open literature. Collaborations that are approved in advance
  through ATP and NIST legal counsel must be in support of only genericbasic research that will
  broadly benefit a technical community. All collaborations not meetirig that requirement are not
  approved. Further information in response to this OIG finding is proVidedJJelow.

 Page i, third bullet:

 DIG Finding: "Project performance should be evaluated. We found little evidence that ATP
 is evaluating the performance of the research projects. Consequently, performance issues cannot
 be adequately addressed, and managers cannotproperly assess theetfectiveness of their decisions
 (seepage 7)."                                                       .



 NIST Response: We recognize that a formal evaluation process for the intramural projects has
 not been implemented. We currently rely on the final project reports to identifYresults. ATP has
 begun to take the appropriate steps necessary to ensure that intramural projects will be subjected
 to the same performance measurement criteria that are applied to ATP funded projects by the
 Economic Assessment Office.

 Page ii, first bullet:

DIG Finding: "More effective methods for disseminating research results could help
improve program impact. F?r example, two of three ATP grantees we contacted were unaware
of potentially beneficial research. Although this small sample is not statistically significant, it
does raiseconcernsas to whetherATP's currentpracticesof relyingon workshopsand            .
conferences to publicize this work are sufficient (see page 8)."

NIST Response: ATP's goal is to ensure that results of research are made public. The CUlTent
practice of publishing papers and utiliZingworkshops and conferences to do this has been very
effective. However, we will take this recommendation under advisement. We are exploring
.additionalavenues for disseminating the results of intramural research.

Page ii, second bullet:

DIG Finding: "Project files should contain written documentation of management
decisions and significant events, as well as copies of needed approval. Without such
evidence, ATP managers cannot effectively demonstrate that they are properly monitoring the
projects, and ensuring that all approvals have been obtained before releasing funds (see page 9)."

NIST Response: We agree that project files shouIdcontain written documentation of
management decisions and significant changes and have made every effort to ensure that this is
                                                      3

     accomplished. All initial intramural project approvals are clearly documented and this was
     provided to the OIG during the review. We disagree that every change warrants a written
     approval. The nature of generic basic research is such that change is to be expected and requiring
     written documentation for each changeis unnecessarily burdensome and not cost effective.
     NIST scientists work very closely with the ATP project managers who are kept informed of
     changesand oral approvalsare appropriateforminorchanges.                     .



     Pages 2-4, I. Selection Process Is Adequate, but Policies and Procedures Are Not Up to
     Date:                                       .




     OIG Finding: "We found ATP's selection process for intramural projects to be adequate for
     selecting intramural projects that meet legislative requirements. However,ATP's written
     policies and procedures, which date back to 1993,do not reflect the current process and should
     be updated~"

     NIST Response: We disagr~e with the OIG that ATP's written policies and procedures do not
     reflect the current process. As discussed above, the ATP policies and procedures are updated
     annually and disse:m.iDatedto the OUs. We especially take exception to the OIG comment found
     on page 4, first incomplete paragraph, which states ''However, ATP's written policies and
     procedures still require that intramural projects be directly linked to specific ATP grantee
    problems." This statement is inaccurate and should be deleted fr~m the OIG report. The
     guidance found in the memorandum dated August 18, 1997, to the OU Directors from the former
    ATP Director specifically stated, "In 1997, ATP decided to shift the intramural funding emphasis
    to generic projects which cut across a focused program or groups of ATP projects to provide the
    measurement and standards which will facilitate the deployment and diffusion of.ATP-developed
    technologies. We have distinctly moved away from intramural support keyed to individual ATP
    projects and companies, or support which may depend on proprietary information supplied from
    a company although such support will be considered on a case by case basis. We.expect benefits
    to the companies to emerge from open publication of results of intramural projects."

    Pages 4-6, II. Concerns About Appropriate Research and Collaborations Remain:

    OIG Finding: "Oui review of 114 intramural project files identified 14 projects in which the
    NIST scientists indicated that they worked closely with an ATP grantee, thus providing a direct
    benefit to a specific ATP project."

    NIST Response: As stated above, ATP requires that an intramural project be one of generic
    basic research. This type of research cannot provide any ATP awardee with undue advantage
    and research results must be published in the open literature. Collaborations that are approved in
    advance through ATP and NIST legal counsel must be in support of only generic basic research
    that will broadly benefit a technical community. All collaborations that do not meet that
    requirement are not approved. In almost every instance, the collaboration activities were
.   approved in advance by ATP and NIST legal counsel. The OIG may not have understood the
                                                  4

nature of using "non-proprietary materials" provided by a company, or procured through nonnal
commercial routes. The OIG understandably may nothave the technical expertise to distinguish
between a generic technique that will be published in the open literature and a proprietary. .
research task. In one project ("In Situ Catalyst and Materials.. .''), it was necessary for the OrG
to understand the difference between the use of Ti-silica supports with particular deposits, and
Ti-alumina supports in making particular generic measurements that would be published in the
open literature.

In another proj ect (Selective Targeting of the mv '"1 ...), it would have been again necessary for
the OIG to discuss the technical scope of both the intiaIDuraland ATP projects with the ATP
project manager to understand their differences. The ATP intramural project focuses on the
protein functio~ while the ATP award focuses on the DNA function. The only similarity is that
both projects use the CC-CKR5 receptor~ The intramural results are of no direct benefit to the
awardee, but they do provide generic infonnation that better describes the biological system
being used that will broadly benefit the technical community. The broad benefits of the
intramural basic research would only be clear to a technical expert in the field without specific
discussion on the issue.

OIG Finding: "We also identified 15 projects in which NIST scientists did not receive approval
for their outside collaborations."

NIST Response: In almost all instances all collaborations were approved in advance.through
NIST legal counsel and ATP, however, we recognize that improvements can be made to
document these approvals. ATP will make every effort to ensure that proper documentation is
readily available. ATP has already implemented a procedure whereby the ATP Administrative
staff maintains a record of all projects that received NIST legal review.

It should be understood, however, that infonnal collaborations are essential and may not always
require prior approval and written documentation. This type of cOllaborationis one where a
scientist may call another to discuss research results that have been placed in the public dom~
either through publication or presentation. Sometimes these typesof' consultations with experts'
are mentioned in final reports; these are an indication of improved technology diffusio~ which
ATP supports. These types of collaborations do not present a risk oflosing intellectual property
rights to another institution or person that could diminish the technology diffusion of the research
results. In fact, these types of collaborations are at the very heart of the type oftechnology
diffusion model that has excellent results for basic generic research. Collaborations enhance
technology diffusio~ therefore, as long as tbe research is basic and generic - to be openly
published, there is little danger of intellectual property issues pinning the research results to a
particular party instead of being available to the scientific cQmmunityas a whole.

In accordance with the OrG recommendations, NIST will 1) clarify the types of collaborationS
that require approval, and 2) provide training to all NIST scientists on the policies and
procedures governing research and collaborations. With respect to the OrG's recommendation
                                                       5

     that project managers meet regularly with NIST scientists, project managers currently have
     regular discussions with NIST scientists regarding the intramural projects. This informal method
     of communication has been very effective, however, we will take under advisement the OIG
     recommendation to have regular meetings.

     Pages 7-8, ill. Project Performance Is Not Being Adequately Addressed:

     OIG Finding: "We found little evidence that ATP managers evaluate the results of the
     intramural projects. . . Ten reports did not clearly show what research was accomplished because
     the summaries did not address the technical milestones and objectives approved by ATP or
     identifythe workperformedwith the ATP funding. Elevenreportsdidnot includea list of the .
     publications and presentations, or describe how the research results would be transferred to the
     ATP grantees and other interested parties."

     NIST Response: ATP's current procedures require that final reports be prepared and submitted
    prior to receiving renewed funding. These final reports must be acceptable to the project
    manager. The final reports must list all researoh accomplishments and generally list any related
    publications. However, in some instances the research may be in the early stages of a multi-year
    effort and no research results may be ready for publication or presentation. To ensure that the
    NIST scientists are aware of the importance to include in the final report the information needed
    to evaluate performance and track accomplishments, appropriate training will be provided as
    indicated above. Additionally, as stated above, ATP has begun to take the appropriate steps to
    conduct evaluations to link the intramural funding results to ATP' s performance measures and
    goals.

    Pages 8-9, IV. Current Method for Disseminating Research Results May Limit Program
    II11Ract

    OIG Finding: "More effective methods for disseminating research results could help
    improve program impact. Under the ATP statute, ATP must ensure that the research results
    are disseminated to its grantees. However, our interviews with three grantees raised a concern
    about the effectiveness of ATP's dissemination methods because two of the three did not know
    about ongoing intramural research that could potentially benefit their own research."

    NIST Response: ATP's goal is to ensure that results of research are made public. The current
    practice of publishing papers and utilizing workshops and conferences to do this has been very
    effective. However, we will consider the OIG's recommendation that additional methods, such
.   as postingnoticesof ongoingresearchtopicsand finalreportson NIST's Internetweb site,be
    developed for disseminating the results of intramural research. ATP will also review the
    intramural program at kick-off and annual meetings as appropriate.

    Page 9-11, V. Documentation of ATP Management Decisions and Approvals Is Not
    Adequate:
                                                    6

 OIG Finding: "ATP's level of documentation did not meet internal control standards because
 the intramural project files (1) did not clearly show that ATP program managers were monitoring
 project research or approving changes in research direction and milestones, and (2) did not
 always contain the approvals and material transfer agreements needed to protect NIST's right to
 the research results when its scientists collaborate with non-NIST scientists or work with
 proprietary information."

 NIST Response: Basic generic research plans by their nature are written to be flexible enough
 so that the principal investigator can make minor modifications to the plan based on research
 results during the project. All do not require prior approval, and few changes are so major as to
 require approval. Research plans are to take possible alternative approaches into account when
 developed, but it is not possible to capture all possible approaches in advance. This is the nature
 of basic research. This also is not contract research, where not meeting a milestone results in
 termination ofa project. It would be unduly burdensome to require the level of monitoring that
 contract research requires. These types of projects have more in common with grants for basic
research .thanwith contracts. Basic research grants typically are funded based on a proposal with
 a general approach outlined, with the understanding that the principal investigator is to take
appropriate advantage of research results along the way to better direct the scope of the effort.
The final report then outlines the research results in a publication such that another scientist
could duplicate the findings as needed in other research efforts. ATP's focus on publishing
research results supports this approach. Basic research grants typically do not require prior
approval for all changes from the original proposal. ATP only requires major changes to be
discussed with the project manager to assure ATP that the change is still consistent with the
generic scope of the originally proposed effort. In accordance with the OIG's recommendation,
training to be provided to the NIST scientists will Include the requirement to adequately address
any major changes in advance with the ATP project manager and document it as appropriate.

Page 10, first incomplete paragraph:

OIG Finding: "ATP awarded a $100,000 grant to a NIST researcher to study and perform
research on high-definition video. What ATP received was attendance and participation in three
standards committee meetings, consultation with ATP staff, and reviews of ATP proposals."

NIST Response: Intramural funding is NOT used to pay for NIST scientists to review ATP
proposals; therefore, this statement should be deleted from the report. While we acknowledge
that the final report from the principal investigator made reference to the review of ATP
proposals, this was not the purpose of the intramural project and no intramural funds were used
for this purpose. The focus of the intramural project was.very specifically tied to a particular
standards effort and not likely to contribute to effectiveness-in the review of proposals. The
results ()fthe intramural project are clearly described in the final report which include trip reports
to the standards meetings.. Participation in these standards meetings, in particular, participation
in the Society of Motion Picture and Television Engineers (SMPTE) working groups, was
essential for the purpose~ of the project. There is a major difference between attending standards
                                                 7

meetings and participating in one. Participation in a standard setting body such as SMPTE
requires a great deal of research which was the subject of this intramural project. The report
sUmmarizedthe research done in splicing technology and audio in compressed domain. Results
of milestones 2 and 4 are more readily visi1)lein the tWotrip reports attached to the final report.
ATP project managers were in constant contact with the researcher aridwere aware of the
contributions to the project. From ATP's viewpoint the objective of this research were achieved.

We hope these comments will be helpful to the OIG. Any questions concerning these comments
should be directed to Barbara Lambis (301-975-4447) or Terri Talbott (301-975-2306).
